                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 109080054                                                                     Page 1 of 1



                 This case arose from an allegation that a PP mischarged his time to NSF awards. 2 The
          PI admitted that, instead of accurately recording the time he spent on an award for each
          reporting period, he charged one NSF award for all his time for each reporting period. He
          believed it all averaged out because he expended the same amount of effort for each award.

                  In response to our query, we received assurance that the PI will be reporting all future
          time and effort (T&E) reports and certifications accurately and truthfully; the PI will take
          refresher training on T&E reporting and certification; and the PI's chair and dean will be
          working to ensure that the PI's reports are accurate and truthful. The PI and university
          reviewed past salary charges to the NSF awards and adjusted $7,745.22 to apply to the
          correct award for the correct effort reporting period. The university acknowledged that it
          bears significant responSibility for the erroneous salary charges and had updated its training to
          prevent recurrence.

                    Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
